<html>
<title> - LIBRARY OF CONGRESS: 2012 INSPECTOR GENERAL REPORT ON LIBRARY-WIDE ACQUISITIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





  LIBRARY OF CONGRESS: 2012 INSPECTOR GENERAL REPORT ON LIBRARY-WIDE 
                              ACQUISITIONS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

                                 OF THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                 HELD IN WASHINGTON, DC, JULY 19, 2012

                               __________

      Printed for the use of the Committee on House Administration



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                       Available on the Internet:
                             www.fdsys.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-656                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















                   COMMITTEE ON HOUSE ADMINISTRATION

                 DANIEL E. LUNGREN, California Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES A. GONZALEZ, Texas
RICHARD B. NUGENT, Florida

                           Professional Staff

             Philip Kiko, Staff Director & General Counsel
                  Jamie Fleet, Minority Staff Director
                                 ------                                

                       Subcommittee on Oversight

                 PHIL GINGREY, M.D., Georgia, Chairman
AARON SCHOCK, Illinois               ZOE LOFGREN, California
RICHARD B. NUGENT, Florida           CHARLES A. GONZALEZ, Texas
TODD ROKITA, Indiana

 
  LIBRARY OF CONGRESS: 2012 INSPECTOR GENERAL REPORT ON LIBRARY-WIDE 
                              ACQUISITIONS

                              ----------                              


                        THURSDAY, JULY 19, 2012

                  House of Representatives,
                         Subcommittee on Oversight,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
room 1310, Longworth House Office Building, Hon. Phil Gingrey 
(chairman of the subcommittee) presiding.
    Present: Representatives Gingrey, Rokita and Gonzalez.
    Staff Present: Phil Kiko, Staff Director and General 
Counsel; Peter Schalestock, Deputy General Counsel; Kimani 
Little, Parliamentarian; Joe Wallace, Legislative Clerk; Yael 
Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Linda Ulrich, Director of Oversight; 
Dominic Storelli, Oversight Staff; Bob Sensenbrenner, Elections 
Counsel; Matt Pinkus, Minority Senior Policy Analyst; Khalil 
Abboud, Minority Elections Staff; and Greg Abbott, Minority 
Professional Staff.
    Mr. Gingrey. I now call to order the Committee on House 
Administration Subcommittee on Oversight for today's hearing on 
the Library of Congress. The hearing record will remain open 
for 5 legislative days so that Members may submit any materials 
that they wish to be included therein. A quorum is present, so 
we may proceed.
    Through its seven service units, the Library of Congress 
provides us--Congress and the American people--an unrivaled 
repository of knowledge and research services, many essential 
for Congress' ability to fulfill its constitutional 
responsibilities. A mission of such scope and significance 
requires adequate resources; and equally important, it requires 
that its resources be strictly managed. With an annual budget 
of over $580 million, taxpayer dollars, it is absolutely 
imperative that the Library have the appropriate measures in 
place to avoid waste and ensure these funds are spent in the 
most efficient and cost-effective manner. Of course, this can 
only be achieved through a collaborative effort between the 
Library and its inspector general, which brings me to the focus 
of today's hearing.
    In March of this year, we received a troubling report from 
the Library's inspector general on the state of its acquisition 
process. The report identified 21 deficiencies stemming from 
inadequate management, a lack of training and expertise, and 
poor acquisition communications with the rest of the Library. 
With $210 million worth of contracts awarded by the Library in 
fiscal year 2011, roughly a third of its overall budget, we 
simply can't afford to ignore these problems.
    Equally disturbing is that of the 21 deficiencies detailed 
in this report, this March report, 16 of 21 were identified in 
2008, 4 years ago, the last time the inspector general 
performed a comprehensive audit of the Library's acquisitions. 
If the Library's acquisition procedures were failing in 2008, 
why did it take 4 years to follow up on that?
    Officewide audits were conducted in 2002, 2003, 2004, as 
well as 2007 and, of course, 2008. Not only does it appear that 
the Library failed to take the necessary action in 2008, but it 
also appears that the inspector general failed to do its job in 
tracking these deficiencies. Congress relies on the inspector 
general to ensure agencies of the Federal Government are 
complying with established standards and safeguards to prevent 
any fraud and identify waste and abuse. Waiting 4 years to 
follow up on previous recommendations is far too long to ensure 
corrective actions have been taken.
    Today I am interested in hearing three things from our 
witnesses: How bad is the problem, how did we get here, and how 
are we going to fix it? How many of the 21 findings and 51 
recommendations have been resolved? What progress has the 120-
day detailee made, understanding that that person has been in 
place just a little more than a month? Of the necessary 
corrective actions yet to be accomplished, when will they be 
resolved?
    In addition, I am also interested in hearing from the 
inspector general an explanation of the factors that determine 
the scheduling of acquisition-related audits and to make 
certain another 4 years will not pass between this March report 
and the next audit.
    I want to thank each of my colleagues for being here today. 
This is a very important subcommittee. We are all extremely 
busy, and we all serve on other very important committees, and 
these are senior members. So I am most appreciative of them 
being here, understanding the significance of this hearing.
    I would now like to recognize the ranking member of the 
full committee--well, in fact, I guess the ranking member of 
the full committee is not here--but a very, very senior-ranking 
Member in the minority party, my good friend from Texas, 
Representative Charles Gonzalez. And I will recognize him now 
for the purpose of providing an opening statement.
    Charlie.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    First I would like to start off with asking for unanimous 
consent to allow the ranking member Bob Brady, Congressman 
Brady's statement to be entered and be made a part of the 
record of today's hearing.
    Mr. Gingrey. Without objection, so ordered.
    [The statement of Mr. Brady follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gonzalez. Thank you, Mr. Chairman.
    It is good to see this subcommittee in action again, as our 
oversight role is one of the most important things that 
Congress can do for this country.
    I share the chairman's concern that the Federal Government 
have a procurement process that works for the American people. 
Many of the most vocal complaints about the first decade of 
this century centered around the practice of granting billions 
of dollars in no-bid contracts, especially during the wars in 
Iraq and Afghanistan. Our Senate colleagues, Senators Claire 
McCaskill and Jim Webb, created the Commission on Wartime 
Contracting to stamp out the waste, fraud, and abuse that was 
costing the Federal Government money. And I hope that there 
will be a bipartisan bill introduced, obviously, in the Senate 
in June that will overhaul wartime contracting practices, and 
that we in the House will act accordingly and support our 
Senate colleagues.
    Fortunately, today we are looking only at the concerns 
about waste, without the fraud or abuse we have seen among now 
notorious defense contractors and healthcare companies, one of 
which paid what was, until earlier this month, the largest 
fraud settlement in United States history, $2 billion in 
criminal fines and civil penalties for systematically 
defrauding Federal healthcare programs. But the inspector 
general has produced a report of serious problems, and I am 
pleased that the Library has agreed to many of the 
recommendations, and that the committee has taken an interest 
in how to improve the procedures at the Library.
    Just as that Medicare fraud suit was a bipartisan effort 
begun under Attorney General Reno and completed under Attorney 
General Ashcroft, oversight should always be a bipartisan 
effort. In that spirit I will not extend my remarks much beyond 
what the chairman has already said. But I was struck by the 
report's notation, quote, ``With the exception of the head of 
contracts, no contracting specialist at the Library has been on 
the job for more than 9 months,'' end quote. Such high rates of 
turnover are, indeed, troubling both for what they may indicate 
about the office and for additional costs that they may cause. 
I will be most interested to hear what the witnesses have to 
say about this particular detail of the report.
    With that, Mr. Chairman, I yield back.
    Mr. Gingrey. I thank the gentleman.
    I now call on my colleague, who passes on an opening 
statement.
    I would now like to introduce our witnesses. Karl 
Schornagel was appointed inspector general of the Library of 
Congress in March of 2001. Prior to his appointment with the 
Library, Mr. Schornagel served as a senior auditor in the 
Office of Inspector General in the Department of Commerce. 
There he helped establish policies related to Government 
Accounting Office auditing standards, and he conducted internal 
quality reviews of compliance with audit and inspection 
standards. Mr. Schornagel began his career in 1979 as a junior 
auditor in the Treasury Department's Financial Management 
Service.
    Our second witness, Robert Dizard, Jr., is now the Deputy 
Librarian of Congress. Prior to this recent appointment, Mr. 
Dizard had served the Library for 22 years in various 
capacities, including Deputy Associate Librarian for Library 
Services and Staff Director and Chief Operating Officer of the 
United States Copyright Office. Most recently he served as 
Chief of Staff to the Librarian of Congress.
    The third witness is Lucy D. Suddreth. Ms. Suddreth is the 
Chief of Support Operations for the Library of Congress, where 
she has served since June of 2010. Ms. Suddreth is responsible 
for supervising the Directors of Human Resources, Integrated 
Support Services, the Office of Opportunity Inclusiveness and 
Compliance, Contracts and Grants Management, and Security and 
Emergency Preparedness. Ms. Suddreth began her service at the 
Library in 1990 and has previously served as Assistant Chief 
Operating Officer and Acting Director of Operations, 
Management, and Training.
    We thank all of you for being here today. The committee has 
received your written testimony. At the appropriate time I will 
recognize each of you for 5 minutes to present a summary of 
that submission. To help you keep time, we have a timing device 
near the witness table--in fact, two of them. The device will 
emit a green light for 4 minutes, and it will then turn yellow 
when 1 minute remains. When the light turns red, it means your 
time has expired.
    I am pretty light on the gavel, so don't feel like you have 
to race through your presentation. We want very much to hear 
from you and realize the importance that we hear you loud and 
clear.
    Mr. Inspector General, we will start with you. Will you 
please proceed.

STATEMENT OF KARL W. SCHORNAGEL, INSPECTOR GENERAL, LIBRARY OF 
  CONGRESS; ROBERT DIZARD, JR., DEPUTY LIBRARIAN, LIBRARY OF 
 CONGRESS; AND LUCY D. SUDDRETH, CHIEF OF SUPPORT OPERATIONS, 
                      LIBRARY OF CONGRESS

                STATEMENT OF KARL W. SCHORNAGEL

    Mr. Schornagel. Chairman Gingrey and members of the 
subcommittee, I am pleased to address my office's recent 
reassessment of the state of contracting activities at the 
Library of Congress. The contracting function is a critically 
important aspect of the Library's operations, accounting for 
more than $200 million in annual expenditures. Due to the 
breadth, depth, and duration of problems found, the Library 
faces a major challenge to demonstrate to taxpayers that it is 
a good steward of its contracting funds.
    To maintain public trust and fulfill public policy 
objectives, an effective contracting function should 
efficiently address customer needs and obtain the best value. 
The success of any public contracting system is rooted in 
proper internal controls that, if adhered to through effective 
management and oversight, promote transparency, accountability, 
competition, and ultimately protect resources from fraud, 
waste, abuse, and mismanagement.
    The Library has a well-documented history of problems in 
its Office of Contracts Management, OCM, as we have repeatedly 
reported over the last 10 years. Based on our ongoing concerns, 
we engaged Jefferson Solutions to perform an evaluation of the 
current state of the Library's OCM.
    The findings and more than 50 recommendations are 
summarized in 3 categories: First, the management of the 
contracting function. We report staff lacking sufficient 
contracting knowledge and experience; lack of supervision and 
training that likely contribute to an extremely high staff 
turnover rate and low morale; no infrastructure component to 
address policy, training, and reporting matters; organizational 
misalignment and a lack of definition of the OCM management 
structure; lack of continuity in leadership--the senior 
procurement executive position has only been filled for 2 of 
the last 9 years; the absence of a performance management tool; 
and inadequate requirements for reviewing procurements under 
$100,000, and an ineffective Contracts Review Board for 
contracts over $100,000 that does not prevent or detect 
deficiencies in the contracting process.
    The second category, technical issues. We report a lack of 
adequate planning; deficient market research supporting 
independent government cost estimates; a gross lack of 
competition--of the 129 randomly selected contracts valued at 
$52 million, more than half were awarded noncompetitively; 
poorly defined requirements; inadequate government cost 
estimates needed to check the fairness and reasonableness of 
vendor quotes; lack of justification for the use of risky 
labor-hour contracts; overuse of nonpersonal services contracts 
for experts and consultants that avoid competition, sometimes 
for readily available services; mischaracterization of contract 
types; pervasive incorrect use and exercise of contract 
options; and a misconfigured contract writing tool for 
inserting critical contract clauses.
    Third category, customers. We report poor communication and 
cooperation between the OCM and its customers; customers 
lacking understanding of their roles and responsibilities for 
planning and executing contracts; contracting officer's 
representatives inadequately trained; and lack of current and 
useful policies and procedures.
    Further, the Library does not track any performance metrics 
related to effective contracting and administration of the OCM, 
even though Library management knows about these longstanding 
problems and is aware that program managers and staff receive 
poor-quality contracting services.
    An area that stands out in particular is that the OCM does 
not consistently promote or ensure full and open competition, 
or ascertain whether it is receiving the best price. 
Consequently, the Library is likely paying more for services 
and supplies and/or limiting access to offerers who may provide 
superior technical approaches and solutions.
    Despite bringing these and other problems to management's 
attention in five prior audits and memoranda between 2002 and 
2008, we conclude that Library management's corrective efforts 
have been unsuccessful, and that there has been further 
deterioration in the function. The extent of problems found 
during this review is troubling, considering Library management 
asserted that it had corrected the vast majority of the 
conditions identified in this and our comprehensive 2008 
report.
    The government has established procurement regulations and 
best practices for competing contracts, comparing costs, and 
determining price reasonableness for the express purpose of 
maximizing the taxpayers' purchasing dollar. The Library's 
continued noncompliance with these guidelines, along with 
ineffective management in the OCM and the lack of 
accountability, expose the Library to a high risk of costly 
inefficiencies and waste of funds.
    Thank you.
    Mr. Gingrey. Thank you.
    [The statement of Mr. Schornagel follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gingrey. Before I call on the next witness for his 
testimony, I want to say that, by a previous agreement, it is 
my understanding, Ms. Suddreth, that you have submitted your 
remarks, but not be giving an oral, and that is fine.
    So we will hear from our last witness before we get into 
the questions of all three of the witnesses.
    Mr. Dizard, you have 5 minutes.

                STATEMENT OF ROBERT DIZARD, JR.

    Mr. Dizard. Thank you, Mr. Chairman.
    Chairman Gingrey, Mr. Gonzalez, members of the 
subcommittee, my written statement reviews, and I will now 
summarize further, the work the Library has undertaken in the 
past 24 months to develop an efficient and stable contracting 
operation, a need again emphasized in the inspector general's 
report. And I hope, Mr. Chairman, to address some of the 
questions that you have raised in your opening remarks.
    I fully appreciate the committee's concerns about the 
issues raised in the report and the need for senior management 
of the Library to show that these issues are being effectively 
addressed.
    As you mentioned, I am joined today by Lucy Suddreth, the 
Library's Chief of Support Operations, in whose service unit 
the Office of Contracts has been located, and who has overseen 
much of the work outlined in my testimony.
    Like all agencies, the Library depends on contracts for 
goods and services to support our mission. Last fiscal year, as 
you have noted, approximately 30 percent of our budget was 
spent through contracts issued by the Office of Contracts. Mr. 
Chairman, I believe we have in the past 24 months established a 
senior management focus and a series of actions that will, with 
sustained attention, address the problems we have had and 
result in a stable and efficient contracts operation.
    I think it is important to note that the issues we are 
dealing with have not involved fraud or abuse in contracts 
processing or execution. They are fundamentally management-
related. Even so, we are executing the Library's budget, and 
contracts are being processed for our programs. We just need to 
do a better job of it.
    In June 2010, I was appointed Library Chief of Staff, and 
Ms. Suddreth was appointed Chief of Support Operations. From 
the start we both gave this area priority attention. Since that 
time some of the actions we have taken to address contracting 
operations issues include the following: We have hired 19 new 
staff members to work in the Office of Contracts. We now have 
33 staff in the office compared to 19 in January of 2011. We 
have additionally added two new supervisory positions to the 
staff.
    Our contracting specialists have completed approximately 
1,200 hours of Federal certification training. Last fiscal year 
we began to implement the Office of Federal Procurement 
Policy's new training curriculum for certifying contracting 
officer representatives in our program offices so that they 
fully understand their own responsibilities in the contracts 
process. Two hundred twenty-four staff members have gone 
through this 5-day training.
    A procurement planning component has been included in our 
new Library budget system, which will be implemented on October 
1.
    Finally, we have transitioned the competition advocate role 
to our general counsel's office. As of July 1, the general 
counsel's office is reviewing solicitations before they are 
issued to ensure that contracts are being properly competed.
    These actions, I believe, address in part the root causes 
identified in the IG's report and are consistent with the 
report's recommendations.
    In June, the House Committee on Appropriations issued House 
Report 112-511, which included language directing the Librarian 
to either hire, contract for, or assign an in-house top-level 
manager, reporting directly to the Chief of Staff and charged 
with addressing, providing solutions to, and bringing to 
closure all concerns in the inspector general's report. In 
response to this language, I have detailed Mr. Edward Jablonski 
to the Office of Contracts. Mr. Jablonski is the Associate 
Director for Finance and Administration in the Congressional 
Research Service. This is his fourth week in the Office of 
Contracts, and he is reporting directly to me.
    The work we started in June 2010 will continue as a 
priority for me and for our senior management team even as we 
work to complete contracts processing this fiscal year. If 
there is a major difference between what we are doing now and 
what has been done in the past to address this issue, it is 
that we are now taking an institutionwide approach to the 
program, not viewing it simply as a contracts office problem. 
We recognize that only with cooperation and collaboration among 
our contract specialists, our program offices, and our 
financial management and legal staff are we able to address the 
primary issues involved here.
    Mr. Chairman, I can speak for myself and the Librarian in 
stating that we will sustain our attention and focus in this 
area. We know that effective contracts administration is 
essential to the proper and efficient provision of the 
Library's services to the Congress and to the Nation. We also 
know that we need to address these issues fully and enduringly. 
We will continue to report our progress to the committee, and 
we are happy to answer any questions now.
    Mr. Gingrey. Thank you, Mr. Dizard.
    [The statement of Mr. Dizard follows:]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gingrey. And, of course, we will begin the first 
round--we possibly will have subsequent rounds--but I will 
start with myself with 5 minutes, and then I will defer to the 
ranking member and then to Mr. Nugent. I am going to start with 
you, Mr. Dizard.
    As you noted in your testimony recently, the Library was 
directed to assign someone to report directly to you for 120 
days regarding the contracting office. And as I understand it, 
this person began that work on June 17. The IG report 
recommends 51 specific recommendations to eliminate, and I 
quote, ``root causes,'' unquote, of deficiencies identified in 
the report. What actions has the appointee taken to implement 
these recommendations? What progress so far has been made?
    Mr. Dizard. I will say Mr. Jablonski's main emphasis now is 
to process the contracts remaining before the fiscal year ends 
on September 30. On some of the root causes that I think he has 
already addressed in tandem with trying to get the work out, he 
has greatly improved, I think, the communications between the 
contracts office and our program offices. He is also working on 
technology tools, principally our financial management system. 
He has met with our system people and our chief financial----
    Mr. Gingrey. Well, let me interrupt you and ask you this: 
Of the 51 recommendations, how many has he addressed?
    Mr. Dizard. Before Mr. Jablonski got there, we had 
addressed approximately half of them. We first started with 
addressing the areas of staffing and training, and we have done 
a lot of work on that. And I would say we addressed those areas 
well before the IG----
    Mr. Gingrey. What assurances do we have that these findings 
and recommendations will not go unresolved for another 4 years?
    Mr. Dizard. I think the assurance is one that I can give 
you here now.
    Mr. Gingrey. Well, that is what we want.
    Mr. Dizard. Right. I will give you that assurance now. And 
I think what has been lacking in our past efforts is a full 
engagement by all of our senior managers, whether it is in the 
Librarian's office, as well as our legal managers and financial 
people.
    So I am confident that even before the report, we have had 
a strong commitment----
    Mr. Gingrey. Well, let me take you back to this question. 
Has the inspector general--we talked about this last report in 
2008. We finally get another report in March of this year. Has 
the inspector general--same guy--regularly briefed you on the 
necessity of implementing those 2008 recommendations? The same 
recommendations.
    Mr. Dizard. Well, I can say since I have been chief of 
staff, the Librarian and the inspector general and I meet every 
month. This is a regular topic of conversation. I was in 
regular contact with the IG during this report as well as 
after. So I think the communications between the inspector 
general and the Librarian's office are good.
    Mr. Gingrey. Thank you. Let's let him speak for himself for 
just a moment on some of the time that I have remaining.
    Mr. IG, in a June 7 National Journal Daily article, you are 
quoted as saying, ``The reason this has gone on for 10 years is 
because there is a lack of continuity in leadership,'' in 
reference to the shortcomings at the Library. You go on to say, 
``Beyond that, there really is no excuse. That is not even an 
excuse. There is really no good reason,'' end quote. Arguably 
there has been consistent leadership at the Library, and yet 
these problems persist.
    Although you couldn't provide a reason in the National 
Journal article, could you provide one to the members of this 
subcommittee?
    Mr. Schornagel. Well, yes. I think it is very simple. There 
is a position at the Library, the Chief Procurement Executive, 
that has been vacant for 7 out of the last 9 years. That is the 
leadership that I am talking about. That is the primary person 
responsible for these contracting activities.
    Mr. Gingrey. You are talking about the position that Ms. 
Suddreth now holds?
    Mr. Schornagel. No, I am not. It is a position under Ms. 
Suddreth that is in charge of both contracts and grants.
    Mr. Gingrey. To your knowledge--and I am sure you would 
know--is that position currently filled?
    Mr. Schornagel. No. No, it is not.
    Mr. Gingrey. Before your most recent report--the last one 
was in 2008. Prior to the 2008 report, there was more 
continuity with reports in 2002, 2003, 2004, and 2007.
    If these problems are so drastic, then why was there a 4-
year gap between your reports, 2008 and this current one, March 
2012? Why 4 years?
    Mr. Schornagel. Well, first of all, we started this most 
recent assignment in 2011. We had to hire a contractor. Of 
course, that took a little time. But that project started in 
2011.
    We do not have the resources to do a comprehensive follow-
up on every important job that we do. No IG, Federal IG, in 
town does. Now, what we do get is semiannually, before we issue 
our Semiannual Report to Congress, an update as to the status 
of implementing recommendations. So what we have to do, and 
what every IG does, is rely on management to make a statement, 
to certify or attest to the fact that they have implemented a 
recommendation. So we have to trust the agency. Every once in a 
while, for a very important job, then, yes, we will go back and 
do a comprehensive follow-up, but that takes a lot of 
resources. And in the meantime, between 2008 and this report, 
we have done many other very important projects that have 
identified millions of dollars in funds to be put to better 
use.
    Mr. Gingrey. My time has expired. In fact, I have abused my 
first 5 minutes by a minute and a half, and I will be lenient 
on my colleagues.
    Let me turn it over to the ranking member for his 
questions.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    Maybe I overlooked it, but that particular position that we 
were referring to as being vacant for a number of years is the 
Office of Contracts and Grants Management?
    Mr. Schornagel. That is correct.
    Mr. Gonzalez. And it has been vacant for how many years?
    Mr. Schornagel. It has been vacant--it was created, 
actually at, I believe, my recommendation back in 2003, and it 
wasn't filled until 5 years later, in 2008. And then it was 
vacated again in 2010, and it has not been filled since.
    Mr. Gonzalez. All right. And just how important is that 
position in order--well, one, would we have avoided many of the 
problems that we face today had that position been filled? And 
going forward, the importance of the position. It seems like if 
something had been vacant off and on for such a period of time, 
people start figuring that it is not a necessary position.
    Mr. Schornagel. Exactly. Yes. I think if that position had 
been filled with a competent person--this is the subject matter 
expert in a Federal agency, a person who develops the 
strategies, the methodologies, the approaches, the contract 
types, and is critical in negotiating contracts. This is an 
extremely critical position. It needs to be filled by someone 
with a lot of technical contracting experience and also someone 
who is a good manager. And that position is the one that has 
been vacant for 7 of the last 9 years.
    Mr. Gonzalez. How many years have you been the inspector 
general?
    Mr. Schornagel. Eleven years.
    Mr. Gonzalez. Eleven.
    Mr. Dizard, you were Chief of Staff previously. You are now 
Deputy Librarian. How long have you been with the Library?
    Mr. Dizard. Twenty-two years.
    Mr. Gonzalez. Ms. Suddreth, you were actually appointed to 
the Office of Support Operations in June of 2010, I believe.
    Ms. Suddreth. That is correct. I have been with the Library 
for 22 years as well.
    Mr. Gonzalez. Okay. So all of y'all have institutional 
knowledge. Now, I am not going to charge you with knowledge of 
the procurement process because that may not have been under 
your jurisdiction or your familiarity with.
    More importantly, what we are trying to do here is not 
necessarily fix the blame; it is the thing about fix the 
problem, and we will figure blame, if there is to be blame. We 
are not talking about fraud. We are not talking about abuse. 
But are we getting the most value for the taxpayer money? And 
are we doing it in a fair way where vendors are treated fairly? 
Because, believe me, we hear from them. My colleagues will tell 
you about that.
    My understanding, Mr. Schornagel, is that almost everybody 
over in the Library doesn't really contest some of your 
findings, recommendations, and that they are going to 
incorporate solutions, and remedies, and processes and such; is 
that correct?
    Mr. Schornagel. Yes. I certainly hope so. I have confidence 
in Mr. Dizard's ability to get that done with an adequate plan.
    Mr. Gonzalez. Where is the major area of disagreement that 
remains outstanding?
    Mr. Schornagel. There was disagreement on four relatively 
minor findings having to do with whether a contracting module 
is appropriate for inserting clauses in contracts. There is 
really no disagreement, I don't believe.
    I think the most critical thing, though, is getting quality 
leadership into the position of Director of Contracts and 
Grants Management, and then that person will, of course, see to 
the appropriate organizational staffing and management needs to 
really turn the organization around.
    Mr. Gonzalez. Mr. Chairman, I am going to suggest that we 
be meeting with that particular individual so that we can get 
this straight. I mean, obviously we have someone that is key to 
this whole operation and going forward.
    And I am running out of time, and, Mr. Dizard, I think you 
wanted to respond.
    Mr. Dizard. If I may, Mr. Gonzalez, the position that you 
are referring to was established as an umbrella position over 
grants and contracts. The senior lead official for contracts 
has been filled all the time. There have not been vacancies 
there. Frankly, one of the questions that we have now is 
whether we need that senior umbrella position at this point, 
and we will decide that before the year is out. But I don't 
want to leave the impression that we haven't had leadership in 
the contracts office. We have.
    Mr. Gonzalez. But I think the inspector general is pointing 
out that there has been some sort of a deficiency there. And in 
this particular position, whether we are going to call it the 
umbrella or the preexisting one, I think you need to get all 
this straight as far as how is this going to flow. We are never 
going to get any answers on this, and we are never going to 
improve.
    But I have used up all my time. Thank you. And I yield 
back, Mr. Chairman.
    Mr. Gingrey. Thank you, Mr. Gonzalez.
    Mr. Nugent from Florida for 5 minutes.
    Mr. Nugent. Just to follow up on my friend's comments, this 
is--from a leadership executive position, this is really a 
damning report in regards to the leadership of the Library of 
Congress, particularly when these issues have been, I guess, 
out there for 10 years. So, you know, as it relates to 
accountability--and you mentioned the umbrella position. 
Obviously it wasn't filled for a number of years, and that 
there may not even be a need for that position. But you do have 
somebody who is in charge of contracts; is that correct?
    Mr. Dizard. That is correct.
    Mr. Nugent. And how long has that person been in that 
position?
    Mr. Dizard. Well, this was the position that the 
Appropriations Committee directed us to put somebody in. They 
said, get a person over there to manage the contracts office. 
Prior to that time, we had a person in there for 2 years.
    This has been an issue. We have had an unexpected 
retirement, an illness of a person who was heading the 
contracts office. The continuity has been a challenge for us.
    Mr. Nugent. And how many people are in the contracts 
office?
    Mr. Dizard. Right now there are 33.
    Mr. Nugent. And what is the average length of experience?
    Mr. Dizard. Many of them have prior Federal contracting 
experience, but the average length of experience probably now 
with us is between 12 and 18 months, with some who have been 
there much longer, but overall a relatively new staff.
    Mr. Nugent. And from the IG's perspective, is there--I 
didn't see this in the report--when you mentioned the lack of 
experience or high turnover, is there a reason for that?
    Mr. Schornagel. Well, yes. You are not going to induce 
people to stay if you don't have a good structure for helping 
them, mentoring them, supervising them, providing proper 
guidance. I mean, that exacerbates the problem of turnover, 
that has been extremely high.
    Mr. Nugent. Ms. Suddreth, what was your role in regards 
to--and I saw in here a reference to training and experience 
and some oversight with that process. What is your role?
    Ms. Suddreth. In 2010, stabilizing and improving the 
staffing levels was the first priority. Mr. Schornagel touches 
on what came into focus for us--what came on our plate to focus 
on in trying to do that, the first thing being that we needed 
to first determine what was the appropriate level of staffing 
for the Library's contract operation, and then what were the 
types of competencies and skill levels, as well as levels of 
certification that we needed to also recruit. And we did take 
into consideration that not only did we face the issues of 
staff leaving the Library of Congress, but there has been an 
overall government issue with staff in this particular career 
series, where there is high turnover. There is a dwindling 
population of contracting professionals, yet a high demand for 
those kinds of qualifications. We used all of that, looking at 
best practices looking across the leg branch as well as the 
executive branch, and made a decision on what the recruitment 
plan should be.
    Mr. Nugent. The question that the IG came up with about was 
the lack of training, or at least that the employees didn't 
feel, I guess, empowered to do their job. I don't want to put 
words in your mouth, but that is the impression that I get. 
What have you done to address that in regards to high turnover?
    Ms. Suddreth. Two points there. The staff that the 
inspector general would have interviewed at that time are no 
longer there. There was a combination of staff. There was a 
combination of contract staff, and new staff that had come on, 
and then two to three existing staff.
    Overwhelmingly, we have changed the staffing profile of the 
contracts office. So we have a staff that came in with the 
prerequisite requirements to fill the job. We have a 74 percent 
increase in the level of certifications to be able to do their 
job. So he would see a totally different landscape of employees 
were that audit to be conducted today.
    In addition to that, we have thoroughly concluded what we 
needed to do to help them with their recertification--receive 
their certifications as well as to continue other training 
and----
    Mr. Nugent. So you are telling me today that staff 
satisfaction will be higher than when this was initially 
reviewed back--when was the actual review, 2011?
    Mr. Schornagel. We finished the review in January, and we 
did most of the evaluation work in late 2011.
    Mr. Nugent. So you are telling me today if they were to 
redo that within the last 8 months that you have improved 
employee satisfaction, specifically?
    Ms. Suddreth. I am saying that what staff would tell you is 
that they are enjoying an adequate span of supervisory control 
so that they have that opportunity to be mentored. They have 
the opportunity to have that direct one-on-one counseling about 
their jobs or advice about their jobs. They would say to you 
that they have an opportunity to receive training. We have 
offered them career-ladder positions. There is an alternative 
work schedule they get to enjoy. Satisfaction would be 
measured, I guess, from employee to employee.
    Mr. Nugent. If we are going to go to another round, I will 
yield back.
    Mr. Gingrey. I thank the gentleman. And we will do another 
round. I don't know how many of my colleagues can remain, but I 
certainly appreciate the first round of questions. Obviously 
they are important enough that I think we will have a second 
round, and I certainly intend to ask further questions.
    I will recognize myself now for an additional 5 minutes.
    Let me--since in the first round, Ms. Suddreth, I ran out 
of time before I had an opportunity to ask you some questions, 
given your senior management position--and you just mentioned 
to us a few minutes ago that you have been with the Library of 
Congress for--as well as Mr. Dizard--for 22 years--how do you 
explain the Library's failure to simply and consistently train 
its procurement staff?
    Ms. Suddreth. Mr. Chairman, I can't say that I could give 
you any concrete reasons why that has not occurred. I want to 
say that since 2008, I have had more direct insight into the 
Office of Contracts and Grants Management. I know during those 
times, with the persons who served as Chief of Contracts, there 
was emphasis on training of staff while there were obviously 
deficiencies that still needed to be improved.
    Mr. Gingrey. Well, do you disagree then with the inspector 
general's report of 2008 and the more recent report here from 
March of this year?
    Ms. Suddreth. I found myself in the position to agree with 
the IG's findings, but most probably because I was faced with a 
situation where staff were leaving the Library. The turnover 
rate was very high, and we needed to, as I said, arrest that so 
that we could stabilize it and bring people on who would, 
first, want to come to work at the Library of Congress and, 
obviously, want to stay here.
    Mr. Gingrey. How many recommendations from the March 2012 
audit have now been implemented?
    Ms. Suddreth. I believe that I have completed 26 of those 
recommendations.
    Mr. Gingrey. Are you telling the committee that it would be 
primarily your responsibility to implement those 
recommendations?
    Ms. Suddreth. It has been.
    Mr. Gingrey. How will you ensure that the recommendations 
that haven't as yet been implemented and those that are ongoing 
will continue to be implemented effectively and efficiently, 
particularly given the Library's failure--and we have harped on 
this. I guess ``harped'' is not the right word, but we have 
emphasized this--the Library's failure to solve these 
deficiencies that go back probably 10 years, but let's say at 
least back to 2008?
    Ms. Suddreth. Well, I will continue to be a part of senior 
management and continue to be a part of that focus. I believe 
the Deputy Librarian has really laid out how he intends to make 
sure that this occurs going forward.
    Mr. Gingrey. Thank you, Ms. Suddreth.
    Let me go back to Mr. Schornagel. As inspector general--and 
you have been around. You have been an inspector general or 
deputy or involved in an IG department in three different 
agencies of the Federal Government, so you know what you are 
doing. You are able to recommend implementation of procedures 
to fix the problems--well, let me rephrase that. Are you able, 
as inspector general, to recommend implementation of procedures 
to fix the problems mentioned in your report, or are you 
limited just to pointing out that the deficiencies exist, 
deficiencies maybe in Library leadership, but it is somebody 
else's responsibility to take care of the problem?
    Mr. Schornagel. Well, yes, it is somebody else's 
responsibility. That is a very clear distinction made in the 
Federal IG community that we are not allowed to take part in 
management of an agency because it compromises our 
independence. We try to explain as much as we can about the 
problem, about why it is a problem, about----
    Mr. Gingrey. All right. All right. I get that. I get that.
    But in my office, my official office here in Washington, my 
official office in the 11th District of Georgia when I am at 
home, and indeed even in my campaign office, when I tell 
somebody to do something, I point out something that is a 
deficiency, I make a note in my BlackBerry or somewhere, iPad, 
and I make sure that within a week or two, or a month at the 
most, that whoever I spoke to in regard to that deficiency has 
gotten back to me and closed the loop. Don't you do that at 
least?
    Mr. Schornagel. Oh, absolutely. In fact, we issue a draft 
report and--after the Library's response to every single 
recommendation, we do a final report, and then within 30 days 
after that, they submit a comprehensive corrective action plan.
    Mr. Gingrey. Well, if you go 4 years and nothing has 
changed, it sounds like, to me, you might just be checking a 
box.
    I have used up my second 5 minutes, and I will turn it over 
to the ranking member.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    We all are trying to get to the same place, hopefully. And 
then I will have the last question for the inspector general. 
But the reason that we are here today is because obviously 
certain procedures may have been followed that deviated what 
should have been better or best practices. What we will hear 
from our constituents--and we live in a very hostile political 
environment right now when it comes to the Federal dollar. But 
on page 28--and I want to cover this because this is the stuff 
that does make the stories, and it is impossible for us, as 
Members of Congress, to adequately explain to our business 
community at times.
    This is page 28 of the inspector general's report. In 
contract number--and there is a long number--it is reflected 
the RFQ was issued on June 16, and responses were received June 
21. There was a quote from the vendor dated June 9.
    Now, remember, the RFQ was issued June 16; responses 
received June 21.
    But on June 9, there was a quote from a vendor for about 
$144,000. There was a second quote from the same vendor dated 
June 21, which matched the awarded dollar value of the 
contract. The final evidence is that the service unit provided 
four possible vendors--so the names were out there, I take it--
to the contracting officer. And this is the contracting 
officer. That is not the contracting umbrella person. I think 
we have got that straight.
    There was no evidence that they were solicited. This was a 
GSA schedule competitive buy with only one vendor responding. 
Now, maybe this was an isolated incident, but this is a serious 
issue not just with the Library of Congress, this happens 
elsewhere. But it is our responsibility that this does not 
happen.
    Is there an explanation, Ms. Suddreth--and I know you have 
been there since 2010, and every contract--I am sure you don't 
go over and read every contract to ensure that process was 
followed. But how does this happen, where there is some 
question about an early request being made or a submission 
prior to the issuance for a request? Then it is updated in 
compliance with the timeline; and it is the exact amount, 
obviously, that is eventually awarded, because my understanding 
would be that it was the only vendor because the others were 
never solicited. How does that happen?
    Ms. Suddreth. Mr. Gonzales, I can't speak specifically to 
this particular example. I can tell you that having read the 
report, and in working with the Deputy Librarian in putting 
together an action plan, my feeling and approach was that we 
need to make sure that it never happens again. If there are 
things--I would say that there should be stringent policies and 
procedures as well as quality assurance, a strong quality 
assurance program, so that this does not happen, and that every 
action that is taken by any of the staff there, contracting 
officers or--and I should say to you, contracting officers can 
also be an employee who is at the GS-13 or GS-14 level, not to 
complicate the situation--but so that everyone there knows what 
the proper procedures are.
    So a direct answer to your question is I can't speak to 
this particular example. I decided to deal with it from a more 
holistic view, and that we needed to make sure that we had very 
stringent policies and procedures.
    Mr. Gonzalez. Thank you.
    My final question is going to be of Mr. Schornagel, and it 
is going to follow up on the chairman's line of questioning, 
and that is you have made your report, there is a response and 
such. Help us figure out what is the best way for us to monitor 
this and understand whether they are in compliance with the 
recommendations and any other--obviously their own plan, but 
recommendations that you would have been making yourself. What 
do we do? Do we have to have another hearing? Do we meet with 
the contracting grants person or contract person? I mean, we 
have got to figure out how we are going to monitor this and get 
our staff to assist us.
    Mr. Schornagel. It is a very difficult thing that you are 
asking, and I think there is no shortcut to that. What is 
necessary for us is to spend the resources to do another 
comprehensive follow-up much sooner rather than later on this 
project. Hopefully what I would suggest is getting a senior-
level executive person in charge of contracts at the Library of 
Congress, make that the head of the contracts office, make it 
the head of contracts and grants, whatever. But get that person 
in place; give them a little time, you know, 6 months at least, 
possibly longer, to really effect these kind of changes; and 
then my office go in and do another comprehensive follow-up, 
spend hundreds of hours. It takes really digging deeply to 
determine whether something has changed or not.
    Mr. Gonzalez. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Gingrey. I thank the ranking member.
    And I will now yield 5 minutes to the gentleman from 
Florida Mr. Nugent for a second round.
    Mr. Nugent. Just as a follow-up, you know, as a chief 
executive officer of an organization, obviously the IG report 
is a blueprint for you to follow up on issues that have come to 
light. And specifically when we are talking about taxpayer 
dollars being utilized appropriately or inappropriately, we 
don't really know, and we don't also know what kind of savings 
would have been accomplished had they followed the correct 
procedures; is that correct?
    Mr. Schornagel. That is correct. We have done some other 
work on individual contracts and identified some 
inefficiencies, but it is hard to draw conclusions from the 
kind of audit that we did in March of 2012.
    Mr. Nugent. As the senior leadership team, when you have an 
IG's report, you have the draft--and I am very familiar with 
how this is done. You have the draft, you have an opportunity 
to respond. If there are issues that you take exception to, you 
have the ability to respond to those, and there was no negative 
response on your part. This occurred, obviously, in 2008 and 
now in 2012. This is like Groundhog Day; everything keeps 
happening again.
    Where in the leadership team has this broken down? I mean, 
there has got to be accountability here somewhere. And you 
can't just say, well, you know, at the lower levels we have had 
constant turnover. Someone in the leadership team has to stand 
up and say, I am responsible, and here is how we are going to 
do it better. But what I hear all too often in the bureaucracy 
here up in Washington, D.C., is that we are very good at, I 
want to say, deflecting, and at the end of the day--and this is 
why taxpayers are upset with us--it doesn't seem like there is 
accountability on anyone's part.
    Mr. Dizard.
    Mr. Dizard. I would say very clearly the Office of the 
Librarian is responsible. There is no doubt about that. And 
what I think I can answer from my time there--and I have tried 
to indicate that I recognize this, having been in the Library 
and been in program offices--is that this was probably the 
primary management issue that we knew we had to address. But I 
think what the failure has been in the past, as I have 
mentioned before, is just to say this is an isolated problem in 
the contracts office, and we just need to fix that.
    And what we are doing now is looking at this across the 
board, because contracts involve program offices. If program 
offices don't know what they are doing and do things wrong, 
that messes up the contracts process and the office. We have 
needs in our financial management system. We have gotten our 
general counsel's office more involved.
    So I am not following the practices of the past. What I am 
trying to say is I am looking at this Library-wide. And I can 
assure you that our senior management across the Library is not 
only aware of this situation, but committed to fixing it. And 
we are not disagreeing with the inspector general's 
conclusions. I would just say that I think we have been acting 
on this for 24 months now so that some of the conclusions that 
he has reached have already been addressed. We have a fully 
staffed office, a better-trained office. We have trained over 
200 of our program offices. We are doing more in terms of 
competition, ensuring greater competition. So we are in the 
process now, not all of a sudden responding.
    Mr. Nugent. And I thank you for that.
    Ms. Suddreth, you had mentioned that 26 of the 
recommendations have been implemented, 25 still yet to be 
implemented. Of those 25 what would you say are the most 
critical of those 25 that you have not yet implemented?
    Ms. Suddreth. Drafting policy and procedures, quality 
assurance, and then making sure that we have the correct 
technology support for them to do their work.
    Mr. Nugent. When you say policies and procedures, what 
specifically are you talking about?
    Ms. Suddreth. I am talking about everything from what I 
would label as FAR interpretive policies. As you know, this is 
a heavily regulated profession, so you have to take that which 
the FAR has said that you must do depending on the kind of 
contract award that you make. You need to make sure that those 
are there. There are also standard operating procedures within 
the office in terms of review, levels of review, levels of 
approval.
    Mr. Nugent. When was the last time that those policies were 
reviewed by your office?
    Ms. Suddreth. We inherited 2008 policies, and in reviewing 
those policies--that is what also led to part of this action 
planning--we found them to be woefully inadequate.
    Mr. Nugent. And do you have a timeline as to when that 
particular aspect of the recommendations will be done?
    Ms. Suddreth. I have. I have put that into the action plan, 
looking to have that all addressed by the end of the calendar 
year. It doesn't mean that work is not ongoing, but at least to 
be addressed by the end of the calendar year.
    Mr. Nugent. So you expect it to be done by the end of this 
year, this calendar year?
    Ms. Suddreth. Yes.
    Mr. Nugent. Okay. I yield back. Thank you.
    Mr. Gingrey. I thank the gentleman.
    I am going to ask one last question. And certainly my 
colleagues, if they would like to ask additional questions, I 
will yield to them when I finish my questions. But I am not 
going to ask them necessarily to stay around for a third round 
unless they have a burning desire to ask a question.
    But I do want to--before concluding the hearing, I 
definitely want to ask one last question, and actually it is to 
Mr. Dizard and Ms. Suddreth. The inspector general, as I 
understand it, is the inspector general for all of the 
operations, the Library of Congress, and there are seven 
divisions, if you will. We have had oversight hearings on four 
of them a couple or few months ago, and he gives reports on all 
seven; does he not? Is that correct, Mr. Dizard?
    Mr. Dizard. Yes, that is correct.
    Mr. Gingrey. And from everything that I have heard, the 
reports have been very good. I won't say sterling, but the 
Library of Congress is performing pretty darn well except for 
this one area.
    Ms. Suddreth, do you think the inspector general is picking 
on you?
    And I ask Mr. Dizard the same question.
    Let us start with Ms. Suddreth.
    Ms. Suddreth. No, I do not think the inspector general is 
picking on me.
    Mr. Gingrey. Do you think he is spot on?
    Ms. Suddreth. I think--in looking at the past 2007-2008 
reports, I think that he is spot on to still say that the root 
causes are still there.
    Mr. Gingrey. Mr. Dizard.
    Mr. Dizard. I don't think the inspector general is picking 
on anybody in the Library. In terms of this report, I think it 
was well presented, well structured and factual, and I think it 
was, for us, an actionable report, something that we could 
react to and, confirm what we had been doing.
    I think it would have been helpful if there was some 
context put in the report that was issued in March in terms of 
what management had already been doing and whether we were on 
the right track or not. But I don't get to write the reports. 
Overall the inspector general is very helpful to our management 
in the work that he does.
    Mr. Gingrey. So at the conclusion of this hearing, the 
three of you are going to go to lunch and have a beer?
    Mr. Dizard. We could do that.
    Mr. Gingrey. You could do that. I know that you could do 
that.
    Mr. Dizard. We could do that. I could probably invite Karl. 
He would probably say no.
    Mr. Gingrey. Do my colleagues have any further questions? 
No questions?
    Well, let me then in conclusion make just a few very brief 
remarks. I want to thank the witnesses. I think you all three 
have been very forthright and haven't dodged any of the tough 
questions, have responded to us. And you can tell from our 
questions that Members take this hearing very seriously. And we 
want you to get it right; we want to help you get it right.
    Obviously there will be a report issued to the leg branch 
of the Appropriations Committee, the subcommittee. I think it 
is due the end of the year, right?
    And so it is all about oversight and investigation. You 
know, many committees of Congress have these subcommittees. I 
have sat on one in the House Armed Services Committee and the 
Science Committee, and I am currently on the Oversight and 
Investigations Subcommittee of Energy and Commerce.
    So I understand my role, our role, in regard to this, and 
it is not one of badgering, and nitpicking, and sitting up here 
and interrupting you, and being rude to you, and making you 
feel bad, and throwing bricks and that sort of thing. And I 
think the ranking member, his demeanor is just like mine, as is 
Mr. Nugent, the gentleman from Florida.
    So I hope you understand, appreciate and accept the tone of 
this hearing in that light, because we are just trying to make 
things better. We have a responsibility. We love the Library of 
Congress and the many things that they provide, you provide, 
for not only our constituents, but us, Members of Congress. I 
mean, CRS is an invaluable source of information, unbiased, 
nonpartisan. So we love what you are doing; we just want to 
help you do it better.
    With that I will call the hearing to a conclusion, and I 
thank all of our witnesses.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
